                       0

  DEFENSE FINANCE AND ACCOUNTING SERVICE WORK ON
  THE NAVY GENERAL FUND 1996 FINANCIAL STATEMENTS



Report Number 98-073                     February 12, 1998




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 604-8908 (DPS 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:
                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG. OSD .MIL;
 or by writing to the Defense Hotline, The Pentagon, Washington, D. C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

CFO                 Chief Financial Officer
DBOF                Defense Business Operations Fund
DFAS                Defense Finance and Accounting Service
FASAB               Federal Accounting Standards Advisory Board
GAO                 General Accounting Office
IG                  Inspector General
NAS                 Naval Audit Service
NHFS                Navy Headquarters Financial System
OM&S                Operating Materials and Supplies
OMB                 Office of Management and Budget
SFFAS               Statement of Federal Financial Accounting Standards
STARS               Standard Accounting and Reporting System
                                                                      February 12, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE NAVY

SUBJECT: Audit Report on Defense Finance and Accounting Service Work on the
         Navy General Fund FY 1996 Financial Statements (Report No. 98-073)


        We are providing this report for review and comment. The audit was
performed in response to the Chief Financial Officers Act of 1990 requirement for
financial statement audits. We considered management comments on a draft of this
report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) and the Defense Finance and Accounting Service conformed to the
requirements of DOD Directive 7650.3 and left no unresolved issues. Therefore, no
additional comments are required from those parties. The Under Secretary of Defense
(Comptroller) did not respond to the draft report. We request that the Under Secretary
of Defense (Comptroller) provide comments on Recommendations 4. a. and 4. b. by
April 13, 1998.

        We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. Richard B. Bird, Audit Program
Director, at (703) 604-9145 (DSN 664-9145) (rbird@DODIG.OSD.MIL) or
Mr. Joel K. Chaney, Audit Project Manager, at (216) 522-6091, extension 235
(DSN 580-6091) (jchaney@DODIG.OSD.MIL). See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                            Office of the Inspector General, DOD
Report No. 98-073                                                    February 12, 1998
   (Project No. 6FI-2024)

        Defense Finance and Accounting Service Work on the Navy
               General Fund FY 1996 Financial Statements

                                   Executive Summary

Introduction. We are providing this report for your review and comment. We
performed this financial statement audit in response to the requirements of the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. Our audit focused on the Defense Finance and Accounting Service Kansas
City Center, which compiled financial information and prepared both budgetary reports
and internal financial statements for the Marine Corps, and on the Defense Finance and
Accounting Service Cleveland Center, which consolidated the financial information for
Navy and Marine Corps and compiled the financial statements for the Department of
the Navy. The Navy financial statements reported assets of $453.4 billion, liabilities of
$13.3 billion, total revenues of $63.2 billion, and expenses of $63.3 billion for the
fiscal year ended September 30, 1996. The Naval Audit Service was unable to render
an opinion on the Statement of Financial Position because of inadequate financial
systems and incomplete and unauditable supporting records. We concurred with the
Naval Audit Service. (For details, see “Department of the Navy Fiscal Year 1996
Annual Financial Report: Report on Auditor’s Opinion,” March 1, 1997.)

Audit Objectives. The overall audit objective was to determine whether the Defense
Finance and Accounting Service (DFAS) Cleveland and Kansas City Centers
consistently and accurately compiled financial data from field activities and other
sources for the FY 1996 Navy General Fund and Navy Defense Business Operations
Fund financial statements. We did not review the compilation of the Navy Defense
Business Operations Fund financial statements because the final version of the
statements was not issued by the Department of the Navy and DFAS Cleveland Center
in time to perform the audit field work. In addition, we planned to determine whether
FY 1996 ending balances were supportable for use as beginning balances for FY 1997 D
However, we could not because data were inadequate (see Appendix C). We reviewed
the adequacy of the management control program as applicable to the overall audit
objective.

Audit Results. FY 1996 was the first year that financial statements were prepared for
the Navy General Fund. Preparation of these financial statements represented a major
step toward improving financial management by the Navy and DFAS. However,
improvements are still needed to increase their reliability and to ensure compliance with
Office of Management and Budget requirements and Federal Accounting Standards.
Data for the FY 1996 Navy General Fund financial statements were not generated by
an integrated, transaction driven, standard general ledger accounting system, and
adequate audit trails were not established to crosswalk data from claimant-level to
departmental accounting systems. Accounts Receivable, Net (Governmental) was
misstated because DFAS did not establish an effective method for estimating an
allowance for uncollectible receivables. In addition, supplemental information in the
Notes to the Statement of Financial Position did not provide accurate disclosure of
Inventory, Operating Materials and Supplies, and Fund Balance with Treasury. As a
result, management cannot fully rely on financial data used to prepare the financial
statements. The inadequate and incomplete disclosure of financial data in these
statements could lead to their misinterpretation. See Part I for a discussion of the audit
results and Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service, require the DFAS Cleveland and Kansas City Centers to
establish audit trails between financial accounting systems used to compile data for the
Navy financial statements. We also recommend that the Director, Defense Finance and
Accounting Service, require the DFAS Cleveland Center to establish a systemic
methodology to determine the allowance for uncollectible Accounts Receivable, to
establish procedures for supervisory review and approval of amounts reported in the
Notes to the financial statements, and to reclassify and separately disclose In-Transit
Problem Disbursements in Note 31 of the FY 1997 financial statements. We
recommend that the Assistant Secretary of the Navy (Financial Management and
Comptroller) provide the DFAS Cleveland Center with guidance for the reporting and
disclosure of Inventory, Net. We also recommend that the Under Secretary of Defense
(Comptroller) provide the DFAS with specific guidance for the accounting and
reporting of Operating Materials and Supplies that implements the intent of the Federal
Accounting Standards Board and covers the disclosure of amounts included in Fund
Balance with Treasury related to Closed Appropriations.

Management Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) and the Defense Finance and Accounting Service
concurred with the audit recommendations and identified corrective actions to be
implemented. The Under Secretary of Defense (Comptroller) did not provide comment
to the draft of this report. We request the Under Secretary of Defense (Comptroller) to
provide comments to the final report by April 13, 1998. See Part I for a complete
discussion of the management comments and Part III for the complete text of
management comments.




                                            ii
Table of Contents

Executive Summary                                                               i

Part I - Audit Results
      Audit Background                                                         2
      Audit Objectives                                                         4
      Compilation of the Navy General Fund Financial Statements                5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                                  22
        Management Control Program                                             23
      Appendix B. Summary of Prior Coverage                                    26
      Appendix C. FY 1997 Beginning Balances                                   28
      Appendix D. Navy General Funds                                           29
      Appendix E. Report Distribution                                          31

Part III - Management Comments
      Assistant Secretary of the Navy (Financial Management and Comptroller)
      Comments                                                                 34
      Defense Finance and Accounting Service Comments                          40
Part I - Audit Results
Audit Background

    Chief Financial Officers Act of 1990. Public Law 101-576, “Chief Financial
    Officers Act of 1990,” November 15, 1990, requires the annual preparation and
    audit of financial statements for Government agencies and for trust funds,
    revolving funds, and substantial commercial activities of Executive departments
    and agencies. The Chief Financial Officers (CFO) Act also requires the
    Inspectors General (IGs) to audit the financial statements in accordance with
    Generally Accepted Government Auditing Standards. Public Law 103-356,
    “Federal Financial Management Act of 1994,” October 13, 1994, amends the
    CFO Act of 1990, requiring each Executive agency to issue agency-wide,
    audited financial statements beginning in FY 1996 and annually thereafter.

    Defense Finance and Accounting Service. The Defense Finance and
    Accounting Service (DFAS) was established as the result of
    DOD Directive 5 118.5, “Defense Finance and Accounting Service, ”
    November 26, 1990. DFAS is chartered to standardize and consolidate DOD
    accounting and finance operations formerly carried out by the various DOD
    organizations and Military Departments. DFAS Headquarters is in Arlington,
    Virginia, and the DFAS centers are in Cleveland, Ohio; Columbus, Ohio;
    Denver, Colorado; Indianapolis, Indiana; and Kansas City, Missouri. DFAS
    also has many smaller operating locations.

            The DFAS Cleveland and Kansas City Centers. The DFAS Cleveland
    and Kansas City Centers prepared the Navy financial statements using both
    consolidated and unconsolidated financial data from field-level organizations.
    The DFAS Cleveland and Kansas City Centers agreed that the financial
    statement data produced by the DFAS Kansas City Center would be used in
    preparing the Navy’s CFO financial statements for FY 1996. The compilation
    process was complicated by the fact that the data submitted to the DFAS
    Cleveland and Kansas City Centers were not generated by an integrated,
    transaction driven, standard general ledger system. As a result, the DFAS
    Cleveland Center used a complex process to compile the Navy statements from
    financial information provided by accounting subsystems; over 80 percent of all
    assets reported were provided by data calls. In addition, the DFAS Cleveland
    and Kansas City Centers manually prepared the statements using information
    from several different accounting systems.

    At both Centers, personnel prepared budget execution reports using data from
    field-level accounting systems for review and certification by Navy and Marine
    Corps organizations. The compilation process began with the transfer of budget
    execution reports and supporting accounting data to Departmental Accounting.
    Departmental Accounting personnel consolidated the accounting data at the

                                           2
appropriation level and recorded adjusting and closing entries. The adjusting
entries included adjustments to:

        o correct accounting data so that it agreed with the certified budget
status reports;

      o record in-transit and unmatched transactions to Accounts Payable and
Accounts Receivable; and

        o record financial information that was available at the appropriation
level but not at the claimant level.

After the consolidation and adjustment of the accounting data, Departmental
Accounting personnel prepared the DD Form 1176 “Report on Budget
Execution, ” from the consolidated data in the Navy Headquarters Financial
System (NHFS). This report was prepared off-line for the reopened Closed
Appropriations using manual spreadsheets because accounting records for the
appropriations were no longer maintained in the accounting systems. The CFO
Project Office at the DFAS Kansas City Center prepared internal financial
statements based on the Report on Budget Execution and provided both the
Report on Budget Execution and the financial statements to the DFAS Cleveland
Center.

The CFO Reporting Branch at the DFAS Cleveland Center crosswalked trial
balance data from the NHFS and other financial data accumulated at the
appropriation level to financial statement line items. This created
appropriation-level financial statements that were then combined into the
Consolidated Navy General Fund financial statements. The CFO Reporting
Branch also recorded adjustments at the consolidated financial statement line
item level such as the adjustments to record Inventory ($41.4 billion); Property,
Plant, and Equipment ($340.9 billion); Accrued Liabilities ($3.0 billion); and
allowances such as uncollectible Accounts Receivable ($78.6 million). For the
reopened Closed Appropriations, the CFO Reporting Branch crosswalked the
Report on Budget Execution into the financial statements as general ledger
account values were not available for these appropriations. The CFO Reporting
Branch prepared the financial statements for the Department of the Navy to
include supporting footnotes.

       FY 1996 Navy General Fund Financial Statements. The IG, DOD,
delegated the audit of the FY 1996 Navy General Fund financial statements to
the Naval Audit Service (NAS). The IG, DOD, assisted the NAS by performing
the required audit work at DFAS Cleveland Center, including examining
processes used to prepare the Navy financial statements.

The Statement of Financial Position reported assets of $453.4 billion and
liabilities of $13.3 billion as of September 30, 1996. The Statement of

                                         3
appropriation level and recorded adjusting and closing entries. The adjusting
entries included adjustments to:

        o correct accounting data so that it agreed with the certified budget
status reports;

      o record in-transit and unmatched transactions to Accounts Payable and
Accounts Receivable; and

        o record financial information that was available at the appropriation
level but not at the claimant level.

After the consolidation and adjustment of the accounting data, Departmental
Accounting personnel prepared the DD Form 1176 “Report on Budget
Execution, ” from the consolidated data in the Navy Headquarters Financial
System (NHFS). This report was prepared off-line for the reopened Closed
Appropriations using manual spreadsheets because accounting records for the
appropriations were no longer maintained in the accounting systems. The CFO
Project Office at the DFAS Kansas City Center prepared internal financial
statements based on the Report on Budget Execution and provided both the
Report on Budget Execution and the financial statements to the DFAS Clevelanc Ll
Center.

The CFO Reporting Branch at the DFAS Cleveland Center crosswalked trial
balance data from the NHFS and other financial data accumulated at the
appropriation level to financial statement line items. This created
appropriation-level financial statements that were then combined into the
Consolidated Navy General Fund financial statements. The CFO Reporting
Branch also recorded adjustments at the consolidated financial statement line
item level such as the adjustments to record Inventory ($41.4 billion); Property,
Plant, and Equipment ($340.9 billion); Accrued Liabilities ($3.0 billion); and
allowances such as uncollectible Accounts Receivable ($78.6 million). For the
reopened Closed Appropriations, the CFO Reporting Branch crosswalked the
Report on Budget Execution into the financial statements as general ledger
account values were not available for these appropriations. The CFO Reporting
Branch prepared the financial statements for the Department of the Navy to
include supporting footnotes.

       FY 1996 Navy General Fund Financial Statements. The IG, DOD,
delegated the audit of the FY 1996 Navy General Fund financial statements to
the Naval Audit Service (NAS). The IG, DOD, assisted the NAS by performing
the required audit work at DFAS Cleveland Center, including examining
processes used to prepare the Navy financial statements.
The Statement of Financial Position reported assets of $453.4 billion and
liabilities of $13.3 billion as of September 30, 1996. The Statement of

                                         3
    Operations and Changes in Net Position reported total revenues of $63.2 billion
    and expenses of $63.3 billion for the fiscal year ended September 30, 1996.
    The Navy General Fund consists of money appropriated by Congress for
    operating Navy and DOD organizations. Navy entity General Funds that must
    be reported on the CFO financial statements are listed in Appendix D.



Audit Objectives

    The overall audit objective was to determine whether the DFAS Cleveland and
    Kansas City Centers consistently and accurately compiled financial data from
    field activities and other sources for the FY 1996 Navy General Fund and the
    Navy Defense Business Operations Fund (DBOF) financial statements. We did
    not review the compilation of the Navy DBOF financial statements because the
    final version was not issued by the Department of the Navy and DFAS
    Cleveland Center in time to perform the audit field work. In addition, we had
    planned to determine whether FY 1996 ending balances reported by the DFAS
    Cleveland Center are usable as beginning balances for the FY 1997 financial
    statements. However, we could not because data were inadequate. (See
    Appendix C.) We reviewed the adequacy of the management control program
    as it related to the overall audit objective. Appendix A discusses the audit scope
    and methodology and the management control program. Appendix B
    summarizes prior coverage related to the audit objectives.
           Compilation of the Navy General Fund
           Financial Statements
           FY 1996 was the first year that financial statements were prepared for
           the Navy General Fund. Preparation of these financial statements
           represented a major step toward improving financial management by the
           Navy and DFAS. However, improvements are still needed to increase
           their reliability and to ensure compliance with Office of Management
           and Budget (OMB) requirements and Federal Accounting Standards.
           Data for the FY 1996 Navy General Fund financial statements were not
           generated by an integrated, transaction driven, standard general ledger
           accounting system, and adequate audit trails were not established to
           crosswalk data from claimant-level to departmental accounting systems.
           Accounts Receivable, Net (Governmental) was misstated because DFAS
           did not have an effective method for estimating an allowance for
           uncollectible receivables. In addition, supplemental information in the
           Notes to the Statement of Financial Position did not accurately disclose
           Inventory, Operating Materials and Supplies, and Fund Balance with
           Treasury. The problems with financial data reliability and lack of
           controls over the compilation of data occurred because:

                   o Accounting systems were inadequate and did not comply with
           financial reporting requirements;

                  o Guidance for reporting Inventory ($41.4 billion) and Operating
           Materials and Supplies ($27,000) was insufficient and unclear; and

                  o Guidance and procedures for disclosing footnote information
           were inadequate.

           As a result, management cannot fully rely on the financial data used to
           prepare financial statements. The inadequate and incomplete disclosure
           of financial data in these statements could lead to their misinterpretation.



Requirements and Standards for Financial Reporting

    Public Law 104-208, “Federal Financial Management Improvement Act of
    1996,” states, “Each agency shall implement and maintain financial systems tha
    comply substantially with Federal financial management systems requirements,
    applicable Federal accounting standards, and the United States Government
    Standard General Ledger at the transaction level.” Office of Management and
    Budget (OMB) Circular No. A- 127 (Revised), “Financial Management
                                             5
Compilation of the Navy General Fund Financial Statements




      Systems,” July 23, 1993, prescribes policies and standards for Executive
      departments and agencies to follow in developing, operating, evaluating, and
      reporting on financial management systems. DOD 7000.14-R, “DOD Financial
      Management Regulation, ” volume 1, “General Financial Management
      Information, Systems, and Requirements, ” March 16, 1993, establishes 13 Key
      Accounting Requirements with which an accounting system must reasonably
      comply.

      The Federal Accounting Standards Advisory Board (FASAB) was established by
      the Secretary of the Treasury, the Director of the Office of Management and
      Budget, and the Comptroller General to consider and recommend accounting
      principles for the Federal Government. The FASAB communicates its
      recommendations by publishing recommended accounting standards after
      consideration from Government organizations and the public. When the
      FASAB decides to adopt the recommendations, the standard is published by
      OMB and General Accounting Office (GAO) and then becomes effective. Two
      Statements of Federal Financial Accounting Concepts and seven Statements of
      Federal Financial Accounting Standards (SFFASs) have been published.
      Federal agencies will follow the SSFAS for reporting under the Federal
      Financial Management Act of 1994.



Accounting Systems

      Deficiencies existing in the accounting systems used by the DFAS Cleveland
      Center to produce the FY 1996 General Fund financial statements limited the
      reliability and accuracy of financial statement data. Data used in the FY 1996
      Navy General Fund financial statements that were compiled by the DFAS
      Cleveland and Kansas City Centers were not generated by an integrated,
      transaction driven, standard general ledger accounting system. Although the
      DFAS Centers were aware of the deficiencies in the accounting systems and
      continue with efforts to improve their adequacy, the Centers had not
      implemented sufficient procedures and controls to ensure the integrity and
      accuracy of the accounting data used to compile the Navy General Fund
      financial statements. The DFAS Cleveland and Kansas City Centers had not
      established adequate audit trails (that is, crosswalks between claimant-level and
      departmental accounting systems). In addition, the DFAS Cleveland Center had
      not established an adequate methodology for the aging of delinquent receivables,
      which is necessary for estimating the allowance for uncollectible receivables.
      Until reporting requirements and accounting standards are met, the Department
      of the Navy will continue to receive disclaimers of opinion on its General Fund
      financial statements.



                                              6
Compilation of the Navy General Fund Financial Statements




      Compliance With Financial Reporting Regulations. The DFAS Cleveland
      Center must ensure that the systems used to compile field-level accounting data
      (Standard Accounting and Reporting System [STARS] Claimant Accounting
      Module, STARS Headquarters Claimant Module, and the Responsible Office
      Automated Resource System) comply with the 13 Key Accounting Requirements
      contained in DOD 7000.14-R, volume 1. The DFAS Cleveland Center reported
      in the 1996 Annual Statement of Assurance that its accounting systems were not
      in compliance with those requirements and that an Interim Migratory
      Accounting System strategy was being implemented to transition the DFAS
      Cleveland Center to compliant systems. DOD 7000.14-R, Key Accounting
      Requirement Number 1, “General Ledger Control and Financial Reporting, ”
      states that the accounting system must have general ledger control and maintain
      an appropriate account structure approved by DOD. The requirement addresses
      the mandatory fiduciary general ledger and reporting requirements at the
      departmental, claimant, and field levels.

      The accounting systems used to compile the Navy General Fund financial
      statements did not use the DOD Standard General Ledger format. For example,
      the claimant-level accounting systems (STARS-Claimant Accounting Module,
      STARS-Headquarters Claimant Module, and the Responsible Office Automated
      Resource System) used the Uniform General Ledger chart of accounts format.
      These accounting systems produced year-end closing statement reports at the
      claimant level. The closing statement reports were then sent to the major
      claimants for verification and certification. After certification, the data was
      transferred to the Navy Headquarters Financial System (NHFS), the
      departmental accounting system used to produce the financial statements.
      During the transfer, accounting data recorded in the Uniform General Ledger
      Chart of Accounts format were converted to the Navy Uniform Chart of
      Accounts format used by the NHFS. Conversions and crosswalks between the
      field-level accounting systems and the NHFS increased the probability of errors
      in the financial statements.

      Audit Trails. The DFAS Cleveland and Kansas City Centers accounting
      systems did not contain audit trails that would support the transfer of financial
      data from claimant-level to departmental accounting systems. DOD 7000.14-R
      Key Accounting Requirement Number 8, “Audit Trails, ” requires that systems
      allow for the tracing of transactions to individual source records. Such audit
      trails ensure that transactions are properly accumulated and correctly classified,
      coded, and recorded into all affected accounts. Audit trails should allow a
      transaction to be traced from initiation through processing to final reports. A
      key test of the adequacy of an audit trail is whether tracing the transaction either
      forward from the source or backward from the result permits verification of the
      amount recorded or reported.

      The DFAS Cleveland Center performed limited testing of the automated process
      to transfer financial data between claimant-level and departmental accounting

                                               7
Compilation of the Navy General Fund Financial Statements




      systems. The DFAS Cleveland Center established crosswalks for FY 1995
      general ledger data transferred between the STARS-Claimant Accounting
      Module and NHFS for several financial statement line items. These crosswalks
      verified that the transferred data were accurately recorded in the proper general
      ledger accounts for the financial statement line items that were tested. Similar
      crosswalks were not established for the STARS-Headquarters Claimant Module
      and Responsible Office Automated Resource System. The lack of an established
      crosswalk limits the ability to trace financial data between systems or from the
      financial statements to its source.

      The DFAS Cleveland Center was aware of these deficiencies and had
      implemented an Interim Migratory Accounting System strategy to transition to a
      integrated, transaction-driven, standard general ledger system but was unable to
      adequately establish and document the necessary crosswalks in the interim.
      Also, the limited crosswalk testing was neither documented nor available for our
      review. The testing performed was insufficient to allow for reliance on the data
      transferred from claimant-level systems to the NHFS.

      Similarly, the DFAS Kansas City Center did not have a documented audit trail
      from the Headquarters Accounting System backwards to the Standard
      Accounting Budgeting and Reporting System, the field-level accounting system.
      Departmental accountants queried the Headquarters Accounting System to
      establish amounts reported in the Report on Budget Execution. For example,
      the DFAS Kansas City Center reported Reimbursements and Other Income
      totaling $361.6 million in the Report on Budget Execution for the Operation and
      Maintenance, Marine Corps, appropriation. The Headquarters Accounting
      System did not provide an audit trail to the supporting transactions for the
      $361.6 million. The departmental accountants could provide the transactions
      from the Standard Accounting Budgeting and Reporting System supporting
      $265.1 million of that amount. However, they could not provide the
      information supporting the remaining $96.5 million. The lack of an established
      crosswalk limits the ability to trace financial data to their source. The DFAS
      Kansas City Center was aware of this deficiency and planned to address the
      establishment of audit trails in their Interim Migratory Accounting System
      program. Currently, the Headquarters Accounting System was scheduled for
      replacement by the Standard Accounting Budgeting and Reporting System by
      October 1997.

      Allowance for Uncollectible Receivables. The Navy General Fund financial
      statements reported Accounts Receivable, Net (Governmental), totaling
      $1.9 billion. The Accounts Receivable balance was reduced by $78.6 million to
      record an allowance for uncollectible receivables. However, the method used
      by the DFAS Cleveland Center for estimating the allowance for uncollectible
      receivables was neither systematic nor comprehensive. As a result, Accounts
      Receivable, Net was misstated. The accounting systems used to capture and


                                              8
Compilation of the Navy General Fund Financial Statements




      report Department of the Navy financial data were not able to perform the
      formal aging of delinquent receivables necessary to establish an accurate
      estimate of allowances for uncollectible accounts.

      SFFAS Number 1, “Accounting for Selected Assets and Liabilities, ” March 30,
      1993, states, “losses due to uncollectible amounts should be measured through a
      systematic methodology. The systematic methodology should be based on
      analysis of both individual accounts and a group of accounts as a whole. ”
      Additionally, agencies should disclose the major categories of receivables by
      amount and type, the methodology used to estimate the allowance for
      uncollectible amounts, and the total allowance.

      DOD 7000.14-R, volume 4, “Accounting Policy and Procedures, ” January 11,
      1995, requires DOD Components to establish allowances for uncollectible
      accounts. In addition, the agencies are required to age delinquent receivable
      accounts reflecting amounts owed to the Government. DOD Components
      operating under this regulation must ensure that their accounting systems
      provide for formal aging of delinquent receivables and the establishment of
      allowances for uncollectible accounts.

      The DFAS Cleveland Center attempted to establish the allowance for
      uncollectible receivables by using data on four appropriations for which historical
      data existed in the Report on Receivables Due from the Public. The percentages
      used to estimate the allowance for uncollectible receivables for these four
      appropriations were correctly determined on an individual basis by dividing the
      bad debt expense for each appropriation by that appropriation’s respective
      Accounts Receivable. For the four appropriations, bad debt expense
      ($23,322,345) represented 12.8 percent of the Non-Federal (Governmental)
      Accounts Receivable ($182,632,169). This percentage was used to estimate the
      allowance for uncollectible receivables for the four appropriations.

      The method that DFAS Cleveland used to estimate the allowance for
      uncollectible receivables for the remaining appropriations did not comply with
      the intent of SFFAS Number 1 or DOD 7000.14-R. The DFAS Cleveland Center
      divided the amount written off for the four appropriations ($23,322,345) by the
      total Non-Federal (Governmental) Accounts Receivable, for all appropriations
      from the Report on Receivables ($927,28 1,555). The resulting percentage,
      2.5 percent, was applied to each of the remaining appropriations with the
      exception of the National Defense Sealift Fund, appropriation 4557, which had an
      entity receivable of $2.1 billion erroneously recorded. The establishment of
      procedures to age receivables for each appropriation is necessary to accurately
      estimate the allowance for uncollectible receivables.

      The DFAS Cleveland Center is making progress in establishing a more accurate
      allowance for uncollectible receivables. The Center issued a memorandum,
      November 26, 1996, requiring the DFAS Cleveland Center operating locations

                                               9
Compilation of the Navy General Fund Financial Statements




      to locally develop allowances for uncollectible accounts in accordance with
      DOD 7000.14-R, volume 1 lB, “Reimbursable Operations, Policy and
      Procedures--Defense Business Operations Fund, ” December 1994.



Reporting Guidance

      Reporting guidance provided to the DFAS Cleveland and Kansas City Centers
      was not consistent with SFFAS. Specifically, the guidance for reporting
      Inventory and Operating Materials and Supplies (OM&S) was inadequate and
      resulted in inconsistent and incomplete disclosure of financial information in the
      Notes to the Financial Statements.

      Inventory, Net. The Navy General Fund financial statements reported
      Inventory, Net, totaling $41.4 billion In its report, “Department of the Navy
      Fiscal Year 1996 Annual Financial Report: Ammunition and Ashore Inventory
      (97-0048), ” the NAS reports that the Department of the Navy used an
      inappropriate and inaccurate source--the Supply System Inventory Report--for
      reporting the value of ammunition on the financial statements. As a result, the
      ammunition value contained material omissions of $20.5 billion and improper
      inclusions of $11.6 billion. In addition, ashore inventory assets valued at
      $3.4 billion were not included in the Inventory, Net, balance. Besides the
      misstatement of the value of Inventory, Net, the Navy statements did not
      provide adequate disclosure of Inventory, Net (Note 8).

      Note 8 to the FY 1996 Navy General Fund financial statements does not
      categorize inventory in accordance with the Office of Management and Budget
      (OMB) Bulletin No. 94-01, “Form and Content of Agency Financial
      Statements,” November 29, 1993. The form and content guidance specifies the
      information to be disclosed as a footnote to the Statement of Financial Position.
      The guidance for Inventory, Net (Note S), specifies disclosure of:

             0 general composition of inventory;

             o basis for determining inventory values; and

             o balances for the following categories of inventory:

                     -   inventory held for current sale,
                     -   inventory held in reserve for future sale,
                     -   excess, obsolete, and unserviceable inventory, and
                     -   inventory held for repair.



                                               10
Compilation of the Navy General Fund Financial Statements




      On December 20, 1996, the Deputy, Chief Financial Officer, DOD, issued
      additional guidance directing that War Reserve Materiel be identified and
      disclosed as a separate inventory category. A prior IG, DOD, audit report,
      (Report No. 97-100, “Asset Presentation on Military Department General Fund
      Financial Statements,” February 25, 1997) recommended that the Under
      Secretary of Defense (Comptroller) revise guidance to include war reserves as a
      separate line item on the Statement of Financial Position, removing it from
      inventory. DOD nonconcurred with this recommendation, and the issue is
      currently in mediation. This section addresses the Navy’s disclosure under the
      December 20, 1996, guidance that was available to the DFAS Cleveland Center
      at the time of financial statement preparation.

      The inadequate disclosure occurred because the Assistant Secretary of the Navy
      (Financial Management and Comptroller) did not provide sufficient guidance to
      the DFAS Cleveland Center. The Assistant Secretary of the Navy (Financial
      Management and Comptroller) directed the DFAS Cleveland Center to use the
      inventory values reported in the Supply System Inventory Report in reporting
      Inventory, Net, in the FY 1996 Navy General Fund financial statements.
      However, the Assistant Secretary of the Navy (Financial Management and
      Comptroller) did not provide guidance for extracting the data from the Supply
      System Inventory Report.

      The Supply System Inventory Report provides information to categorize the
      inventory that would materially change the footnote disclosure. First, the
      inventory held in support of the Approved Acquisition Objective excluding War
      Reserve Materiel should be classified as inventory held for sale. Second,
      materiel held in support of economic and contingency retention stock should be
      classified as inventory held for future sale. Finally, the inventory held as
      potential reutilization and disposal stock should be classified as Excess,
      Obsolete, and Unserviceable inventory. Table 1 compares the amounts reported
      in footnotes to the Navy financial statements with the disclosure that we believe
      was required by form and content guidance in OMB Bulletin No. 94-l.

          Table 1. Footnote Differences
                                                                         Form and
                                                   Navy                   Content
                                                 Statements               Guidance
          Inventory Account                     [thousands)            [thousands)

          Held for Current Sale                $        44            $6,982,490
          Held for Future Sale                  41,413,657                297,905
          War Reserve Materiel                      27,418             34,148,851
          Excess, Obsolete, & Unserviceable
                                      __--__              0                11,873
           Total                               $41,441,119            $41,441,119
      I

                                               11
Compilation of the Navy General Fund Financial Statements




      Operating Materials and Supplies. The Navy General Fund financial
      statements reported Operating Materials and Supplies, Net, totaling $27,000.
      The NAS reported that except for the amount applicable to the trust fund, the
      Navy expensed or misclassified these assets. (See “Department of the Navy
      Fiscal Year 1996 Annual Financial Report: Report on Auditor’s Opinion
      (022-97), ” March 1, 1997.) The NAS estimated that $7.8 billion of OM&S
      aboard ships and with the Marine Corps was not reported on the financial
      statements. Our review of the compilation of the financial statements, in
      support of the NAS disclaimer of opinion, indicated that the Navy did not report
      OM&S held by the Marine Corps totaling $96 million on the Statement of
      Financial Position and did not include that amount in program and operating
      expenses of the period. This occurred because guidance from the Assistant
      Secretary of the Navy (Financial Management and Comptroller) was
      inconsistent with the requirements of SFFAS Number 3, “Accounting for
      Inventory and Related Property, ” October 27, 1993.

      SFFAS Number 3 defines OM&S as consisting of tangible personal property to
      be consumed in normal operations. OM&S differs from inventory in that
      inventory is tangible personal property that is being held or produced for sale or
      is to be consumed in the production of goods for sale or in the provision of
      services for a fee. According to the SFFAS Number 3, the primary method for
      recognizing OM&S is the consumption method. Under the consumption
      method, OM&S are recognized and reported as assets when they are purchased
      and expensed when issued to an end user in the course of normal operations.
      SFFAS Number 3 defines an end user as any component of a reporting entity
      that obtains goods for direct use in its normal operations. However, an entity
      that maintains or stocks OM&S for future issuance shall not be considered an
      end user.

      The Under Secretary of Defense (Comptroller) has not issued guidance on
      reporting OM&S. On July 19, 1996, the Assistant Secretary of the Navy
      (Financial Management and Comptroller) issued a memorandum providing
      guidance for compiling data reported in the FY 1996 financial statements. The
      memorandum directed that no value would be reported for operating supplies
      because this type of item should be expensed and not reported as an asset. The
      Assistant Secretary of the Navy (Financial Management and Comptroller) based
      this guidance on discussions with the Under Secretary of Defense (Comptroller)
      and on a March 7, 1996, memorandum from the Under Secretary of Defense
      (Comptroller) to the DFAS. This memorandum directed that DFAS should
      follow the existing policy that ammunition held by Marine Corps activities for
      later distribution to end users not be reported as an asset unless that ammunition
      is reported in the Supply System Inventory Report.

      The guidance issued by the Assistant Secretary of the Navy (Financial
      Management and Comptroller) was inconsistent with the requirements of



                                              12
Compilation of the Navy General Fund Financial Statements




      SFFAS Number 3 and resulted in the understatement of Operating Materials and
      Supplies in the financial statements. That guidance did not allow the Marine
      Corps to report $96 million of OM&S in the financial statements. The OM&S
      was consumable material that Marine Corps activities held for distribution to the
      end user. The OM&S was procured and managed by a general fund activity,
      not by the DOD supply system. We believe this material is the type of asset that
      SFFAS Number 3 requires to be reported as OM&S.



Footnote Disclosures

      Footnote disclosures to the Navy FY 1996 General Fund financial statements
      for Fund Balance with Treasury, reopened Closed Appropriations, and Problem
      Disbursements were inadequate and inaccurate. As a result, financial data could
      be misinterpreted or misconstrued. In addition, procedures were not in place to
      ensure footnote disclosures complied with OMB Bulletin 94-01,
      DOD 7000.14-R, and the SFFAS. OMB Bulletin 94-01 states, “the notes to
      principal statements, which are an integral part of the principal statements, shall
      provide additional disclosures necessary to make the principal statements fully
      informative and not misleading. ” In addition, DOD 7000.14-R, volume 6,
      “Reporting Policy and Procedures, ” February 1993, states:
                 The notes to the principal statements should contain all disclosures
                 necessary to make the financial statement fully informative and to
                 avoid misinterpretations. The notes should be an integral part of the
                 principal statements. The notes should contain a discussion of all
                 accounting policies, and any deviations from the standards contained
                 in the policies and procedures published in this Regulation.

      Fund Balance with Treasury. The Navy statements did not disclose in Note 2,
      Fund Balance with Treasury, $1.8 billion in FY 1991 expiring year funds that
      were returned to the Treasury on September 30, 1996. SFFAS No. 1 requires
      that the Agency “provide information on unused funds in expired appropriations
      that are returned to the Treasury at the end of a fiscal year.” In addition, the
      DFAS Cleveland Center miscalculated by $1.5 million the amount for the
      restricted unobligated balance in Note 2. The inclusion of an erroneous amount
      for appropriation 0703 - Family Housing, Navy and Marine Corps, caused the
      amount reported in the Fund Balance with Treasury to be overstated by
      $1 .5 million.

      In addition, Note 2 did not disclose that $2.2 billion of Closed Appropriation
      balances that were no longer available for disbursement or to pay liabilities was
      included in the obligated (but not expensed) amount of $48.1 billion. This
      situation occurred because adequate guidance regarding the footnote disclosure


                                                   13
Compilation of the Navy General Fund Financial Statements




      of Closed Appropriation balances had not been developed. The Closed
      Appropriations were reopened at the Treasury level for the recording of
      accounting adjustments in FY 1996. OMB Bulletin 94-01 defines Fund Balance
      with Treasury as the “amount of the entity’s accounts with the U.S. Treasury
      for which the entity is authorized to make expenditures and pay liabilities.”
      This guidance does not indicate how to disclose an obligated balance associated
      with closed years that is no longer available for expenditure or for payment of
      liabilities. As a result, the amount of Fund Balance with Treasury available for
      expenditure as reported in the financial statements could be misleading.

      Reopened Closed Appropriations. The DFAS Cleveland Center inaccurately
      calculated and disclosed the amounts related to the Closed Appropriations in
      Note 3 1. The DFAS Cleveland Center attempted to comply with full disclosure
      of the effect of the reopening of the Closed Appropriations on the financial
      statements. However, errors totalling $540.1 million occurred in the calculation
      of the line items in Note 31 because amounts related to Marine Corps
      appropriations were excluded from the calculation. The exclusion resulted in an
      understatement of assets, liabilities, and equity associated with the reopened
      Closed Appropriations by $540.1 million. This error was limited to the
      footnote and did not affect the amount reported in the Statement of Financial
      Position. Table 2 identifies the effect of excluding the amounts related to the
      Marine Corps from Note 3 1.

       Table 2. Amounts Excluded from Note 31

                                                                        Amount
                                                                       Excluded
       Footnote Line Item                                              (millions)

       Fund Balance with Treasury                                       $531.1
       Accounts Receivable                                                 0.6
       Advances and Prepayments                                          A 84

         Subtotal Assets                                                $540.1

       Accounts Payable                                                  349.4
       Other Liabilities and Net Position                               190.7

         Subtotal Liabilities and Equity                                $540.1

      Problem Disbursements. The Navy’s disclosure of Problem Disbursement
      information in Note 31 was inaccurate and could lead to the misinterpretation of
      Problem Disbursement data in the FY 1997 Navy General Fund financial
      statements. This situation occurred because In-Transit Problem Disbursements



                                             14
Compilation of the Navy General Fund Financial Statements




      identified by the Assistant Secretary of the Navy (Financial Management and
      Comptroller) at the end of FY 1996 and included in Note 31 amounts were
      categorized as either Unmatched Disbursements or Negative Unliquidated
      Obligations. Therefore, the ending balances disclosed for the categories of
      Unmatched Disbursements and Negative Unliquidated Obligations were
      overstated by an amount related to In-Transit Problem Disbursements.

      Guidance from DFAS Headquarters requires that the Problem Disbursement
      categories of Negative Unliquidated Obligation and Unmatched Disbursements
      be disclosed in Note 31 to compare with prior-year Problem Disbursement
      balances as a vehicle for tracking progress in the reduction of Problem
      Disbursements. To consistently track progress, a category entitled In-Transit
      Problem Disbursements should be included in Note 31 to the FY 1997 Navy
      General Fund financial statements. Additionally, FY 1996 ending Problem
      Disbursement balances for the Unmatched Disbursement and Negative
      Unliquidated Obligation categories should be adjusted accordingly. Disclosure
      in this manner will prevent an inconsistent disclosure in the FY 1997 financial
      statements.



Summary

      The completion of the first consolidated Navy General Fund financial statement
      was a major effort. However, until system improvements are made and audit
      trails are established to allow for verification of field-level data, the Navy risks
      material misstatement in its financial statements. The DFAS Centers were
      aware of deficiencies caused by noncompliant accounting systems and were in
      the process of implementing an interim migratory accounting system strategy.
      Therefore, we have not made recommendations in this area. In the meantime,
      controls over the transfer of accounting data from field-level accounting systems
      require increased attention. The audit trails or crosswalks between field-level
      accounting systems and the departmental systems need to be documented and
      tested. Otherwise, the Navy risks not being able to trace the accounting for
      approximately $71 billion of financial assets being reported through financial
      systems. Also, until historical data for $1.9 billion of Accounts Receivable for
      all appropriations can be captured and reported through an accounting system,
      each account must be researched to determine an appropriate basis for
      estimating uncollectible receivables. According to the SFFAS Number 1, losses
      due to uncollectible amounts should be measured through a systemic
      methodology based on analysis of both individual accounts and a group of
      accounts as a whole. In addition, the Under Secretary of Defense (Comptroller)
      should provide supplemental guidance to DFAS Centers for reporting and
      financial disclosure to ensure consistent and accurate presentation of financial


                                               15
Compilation of the Navy General Fund Financial Statements




      data related to Accounts Receivable, Inventory, OM&S, Fund Balance with
      Treasury, and Problem Disbursements.



Assistant Secretary of the Navy (Financial Management and
Comptroller) Comments on the Finding

      The Assistant Secretary of the Navy (Financial Management and Comptroller)
      nonconcurred with the finding, stating that the Office of Financial Operations
      was responsible for compiling and forwarding the data for Inventory, Net to the
      DFAS Cleveland. Therefore, additional guidance for reporting and disclosure
      of Inventory, Net was not necessary. Concerning the disclosure for Inventory,
      Net (Note S), the Assistant Secretary stated that except for a small trust fund,
      the General Funds inventory was either held for future use or held as war
      reserve materiel. The disclosure presented in the DOD form and content
      guidance conforms to reporting Working Capital Fund inventory, not General
      Funds. The Assistant Secretary also requested revision of Appendix D with
      updated information on Navy accounts.



Audit Response

      We do not agree with the comments of the Assistant Secretary. Additional
      guidance was needed to accurately classify Inventory, Net in accordance with
      the OMB form and content guidance. Inventory, Net was derived primarily
      from amounts reported in the Supply System Inventory Report, which included
      $40.4 billion of principal items and $1 .O billion of secondary items. The Office
      of Financial Operations did not provide the guidance needed to accurately
      classify the principal items as either Inventory Held for Future Sale or War
      Reserve Materiel. The Naval Audit Service reported that missile and munition
      inventories, valued at $34.1 billion, were held as War Reserve Materiel but
      reported as Inventory Held for Future Sale. Additionally, the Supply System
      Inventory Report guidance that could have been used to accurately classify the
      secondary item inventory as Inventory Held for Current Sale, Held for Future
      Sale, War Reserve Materiel, and Excess, Obsolete, and Unserviceable materiel
      was not followed.        DOD 7000.14-R, the “DOD Financial Management
      Regulation, ” volume 6, “Reporting Policies and Procedures,” chapter 6, “Form
      and Content of Audited Financial Statement,” January 1998, significantly
      revised the reporting and disclosure for the materiel that was previously
      classified as Inventory.


                                             16
    Compilation of the Navy General Fund Financial Statements




          data related to Accounts Receivable, Inventory, OM&S, Fund Balance with
          Treasury, and Problem Disbursements.



    Assistant Secretary of the Navy (Financial Management and
    Comptroller) Comments on the Finding

          The Assistant Secretary of the Navy (Financial Management and Comptroller)
          nonconcurred with the finding, stating that the Office of Financial Operations
          was responsible for compiling and forwarding the data for Inventory, Net to the
          DFAS Cleveland. Therefore, additional guidance for reporting and disclosure
          of Inventory, Net was not necessary. Concerning the disclosure for Inventory,
          Net (Note S), the Assistant Secretary stated that except for a small trust fund,
          the General Funds inventory was either held for future use or held as war
          reserve materiel. The disclosure presented in the DOD form and content
          guidance conforms to reporting Working Capital Fund inventory, not General
          Funds. The Assistant Secretary also requested revision of Appendix D with
          updated information on Navy accounts.



    Audit Response

          We do not agree with the comments of the Assistant Secretary. Additional
          guidance was needed to accurately classify Inventory, Net in accordance with
          the OMB form and content guidance. Inventory, Net was derived primarily
          from amounts reported in the Supply System Inventory Report, which included
          $40.4 billion of principal items and $1 .O billion of secondary items. The Office
          of Financial Operations did not provide the guidance needed to accurately
          classify the principal items as either Inventory Held for Future Sale or War
          Reserve Materiel. The Naval Audit Service reported that missile and munition
          inventories, valued at $34.1 billion, were held as War Reserve Materiel but
          reported as Inventory Held for Future Sale. Additionally, the Supply System
          Inventory Report guidance that could have been used to accurately classify the
          secondary item inventory as Inventory Held for Current Sale, Held for Future
          Sale, War Reserve Materiel, and Excess, Obsolete, and Unserviceable materiel
          was not followed.        DOD 7000.14-R, the “DOD Financial Management
          Regulation, ” volume 6, “Reporting Policies and Procedures,” chapter 6, “Form
          and Content of Audited Financial Statement,” January 1998, significantly
          revised the reporting and disclosure for the materiel that was previously
          classified as Inventory.


I
/                                                16
Compilation of the Navy General Fund Financial Statements




      We revised Appendix D to include the information requested.



Recommendations and Management Comments

      1. We recommend that the Director, Defense Finance and Accounting
      Service, require the Defense Finance and Accounting Service Cleveland and
      Kansas City Centers to establish audit trails that trace financial data by
      documenting and testing crosswalks between all nonstandard general ledger
      financial accounting systems and departmental accounting systems.

      Management Comments. The DFAS concurred, stating that the DFAS
      Cleveland Center completed crosswalks between the Navy Departmental System
      (NHFS) and both the STARS Headquarters Claimant Module and STARS
      Claimant Accounting Module in April 1997 and that crosswalks between the
      Responsible Office Accounting and Reporting System and NHFS are nearly
      complete. The DFAS Kansas City Center plans to implement the Standard
      Accounting Budgeting and Reporting System 2, Phase II, in October 1998.
      Completion of Phase II will provide audit trails for all Marine Corps General
      Fund Appropriations.

      2. We recommend that the Director, Defense Finance and Accounting
      Service, require that Defense Finance and Accounting Service Cleveland
      Center:
             a. Establish a systemic methodology for determining allowances for
      uncollectible Accounts Receivable based on research of past losses.

      Management Comments. The DFAS concurred, stating that the DFAS
      Cleveland Center is currently working to improve procedures related to vendor
      duplicate, erroneous, and over payments in the One Pay System, which will
      include a process to estimate the allowance for losses on claims and refunds
      receivable. Because the Department of the Navy is responsible for determining
      the allowances to be applied to accounts receivable outside the One Pay System
      and for reporting the amount to DFAS, the Navy and DFAS will continue to
      coordinate procedures to maintain and establish a systemic methodology. DFAS
      plans to complete the action by June 30, 1998.

             b. Establish written procedures that require supervisory review and
      approval of amounts reported in the Notes to the financial statements to
      ensure compliance with the Statement of Federal Financial Accounting
      Standards and Office of Management and Budget Bulletin No. 94-01,



                                            17
Compilation of the Navy General Fund Financial Statements




      “Form and Content of Agency Financial Statements,” for adequate footnote
      disclosure.
      Management Comments. The DFAS concurred, stating that a draft of the
      DOD Financial Management Regulation that covers standard Chief Financial
      reporting is being staffed. Additionally, DFAS Centers will be responsible for
      drafting standard operating procedures to ensure that supervisory personnel
      conduct a more comprehensive and detailed review of each footnote to include
      the information to be disclosed, the extent of disclosure, and the approval
      process for adjustments. In the interim, the DFAS Cleveland Center will draft
      written procedures that require supervisory review and approval of footnote
      information by January 3 1, 1998 ~

             c. Reclassify and separately disclose in the footnotes, the amount of
      FY 1996 In-Transit Problem Disbursements included in Unmatched and
      Negative Unliquidated Obligation Problem Disbursement amounts in
      Note 31 to the FY 1997 Navy General Fund financial statements.

      Management Comments. The DFAS concurred, stating that the DFAS
      Cleveland Center will include the recommended disclosure in the FY 1997 CFO
      statements. DFAS plans to complete the action by December 31, 1997.

      3. We recommend that the Assistant Secretary of the Navy (Financial
      Management and Comptroller) provide the Defense Finance and
      Accounting Service Cleveland Center with guidance for the reporting and
      disclosure of FY 1997 Inventory, Net.

      Management Comments. The Assistant Secretary of the Navy (Financial
      Management and Comptroller) concurred, indicating that the FY 1997
      Department of the Navy financial statements, they will be prepared using the
      DOD “Guidance on Form and Content,” as presented in the DOD Financial
      Management Regulation. The Assistant Secretary of the Navy (Financial
      Management and Comptroller) plans to complete the action by March 1, 1998.

      4. We recommend that the Office of the Under Secretary of Defense
      (Comptroller):

             a. Provide the Defense Finance and Accounting Service with specific
      guidance regarding the reporting of Operating Materials and Supplies in
      accordance with the intent of the Federal Accounting Standards Advisory
      Board.




                                             18
Compilation of the Navy General Fund Financial Statements




            b. Provide the Defense Finance and Accounting Service with specific
      guidance on the disclosure in the footnotes to the financial statements of
      amounts included in Fund Balance with Treasury related to Closed
      Appropriations.

      Management Comments. The Under Secretary of Defense (Comptroller) did
      not comment on a draft of this report. We request that the Under Secretary
      provide comments on the final report.




                                          19
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    Work Performed. We examined the DFAS Cleveland and Kansas City
    Centers’ processes for consolidating the financial data used to produce the
    FY 1996 Navy General Fund financial statements. The DFAS Centers
    consolidated field-level data, which were used to prepare the Navy General
    Fund financial statements, version 2, submitted to us on December 17, 1996.
    We tested the process for crosswalking computer-generated trial balances to the
    claimant-level financial statements. This testing was completed at the claimant
    by appropriation level. We also tested the consolidation of appropriation-level
    financial statements. Using a summary of financial statement line item data by
    appropriation, we verified the accuracy of consolidating appropriation-level data
    to the consolidated Navy financial statements. Further, we reviewed 15 off-line
    adjustments totaling $276.1 billion made to the version 2 financial statements
    and all variances between version 2 and the final version of the Navy’s financial
    statements for accuracy and completeness.
    Limitations to Audit Scope. We did not evaluate the accuracy of data from
    sources outside the DFAS Cleveland and Kansas City Centers, including the
    accuracy of data submitted by field-level accounting entities. We did not review
    the compilation of the Navy Defense Business Operations Fund financial
    statements because the final version of the statements was not issued by the
    Department of the Navy and DFAS Cleveland Center in time to perform the
    audit field work.

    Audit Period and Standards. We performed this financial-related audit from
    May 1996 through August 1997. The audit was performed in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the IG, DOD. We evaluated whether significant control
    policies and procedures had been properly designed and were operating
    effectively, and we included tests of management controls considered necessary.

    Use of Computer-Processed Data. To achieve the audit objectives concerning
    the manual process for preparing the FY 1996 Navy General Fund financial
    statements, we relied on computer-processed data from numerous accounting
    systems. We did not test the reliability of the data from the accounting systems
    because we focused on the processes used to prepare financial statements.
    However, various audits by the Naval Audit Service tested the reliability of the
    data and identified inaccuracies. For example, the amounts reported for the

                                           22
                                                       Appendix A. Audit Process




    Fund Balance with Treasury were not accurate. The DFAS Cleveland and
    Kansas City Centers manually computed the Fund Balance with Treasury
    balance because the accounting records did not reconcile with the Treasury
    reported balance. Also inaccuracies were noted in the data reported from the
    Supply System Inventory Report. About $20.4 billion of ammunition data was
    omitted and about $11.6 billion was improperly included. These data
    inaccuracies do not change the conclusions reached in this report.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available upon request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls over its operations and to perform periodic
    self-evaluations of those management controls. We reviewed both elements of
    the DFAS Cleveland and Kansas City Centers management control program.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland and Kansas City Centers management controls
    over the compilation of the FY 1996 Navy General Fund Consolidated Financial
    Statements. Specifically, we reviewed management controls over adjustments
    and compilation of the financial statements. We also reviewed management’s
    self-evaluation program as applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DOD Directive 5010.38. The DFAS
    Cleveland and Kansas City Centers had not established effective controls to
    ensure that field-level accounting data were accurately crosswalked to the
    departmental accounting system. In addition, procedures were not in place to
    accurately estimate the allowance for uncollectible Accounts Receivable. The
    recommendations, if implemented, will correct the material weaknesses.
    Recommendation 1.) if implemented, will improve the DFAS Centers’
    crosswalked data. Recommendation 2-a. will improve the accuracy of
    uncollectible accounts receivable reported on the financial statements.
    Recommendations 2.b. and 2.~. will facilitate adequate footnote disclosure of
    financial information by the DFAS Cleveland Center. We will provide a copy
    of this report to the senior official in charge of management controls in the
    Office of the Secretary of Defense and the DFAS.

    Adequacy of Management’s Self-Evaluation. The DFAS Cleveland Center
    management self-evaluation was inadequate. The DFAS Cleveland Center had

                                          23
Appendix A. Audit Process




      established assessable units related to the general accounting processes affecting
      the preparation of the financial statements and had planned reviews to assess
      those areas under the internal management control program. However, the
      reviews were not completed. During FY 1996, the DFAS Cleveland Center
      completed 34 of 56 (61 percent) of the planned reviews of assessable units. Not
      completing planned assessable unit reviews limits the effectiveness of the
      internal management control program.

      The DFAS Cleveland Center also had not accurately documented accounting
      system deficiencies in management reports; therefore, the Center had not
      implemented alternative controls to mitigate accounting system deficiencies until
      the accounting systems are improved. The management reports on individual
      accounting systems did not show that the audit trails between field-level and
      departmental accounting systems did not exist. Although the System
      Manager/User Review for the STARS reported that the STARS does not
      establish an allowance for uncollectible Accounts Receivable and corresponding
      expense to provide full financial disclosure and that STARS field-level
      reimbursable accounting function does not “age” receivables, the DFAS
      Cleveland Center had not established effective alternative procedures to
      accurately estimate the allowance.

      The DFAS Kansas City Center had not designated the processes the Center used
      to compile the financial reports as a separate assessable unit in FY 1996. The
      Center indicated that the process would become a separate assessable unit by
      June 1997. In addition, due to the consolidation of accounting functions, some
      of the planned FY 1996 reviews that were not completed were no longer valid
      and the internal management control program was not updated to reflect the
      changes. The DFAS Kansas City Center planned to update the assessable units
      in FY 1997, accordingly we are making no recommendations.

      Adequacy of Management’s Assessment of Accounting Systems. The DFAS
      Cleveland and Kansas City Centers reported that the accounting systems used to
      prepare the CFO financial statements did not comply with the Key Accounting
      Requirements in their Annual Statements of Assurance for FY 1996.

      The DFAS Cleveland Center System Manager/User Review of the STARS
      indicated that the system satisfied the Key Accounting Requirement for audit
      trails. While the provision for audit trails within the STARS may be effective,
      the audit trails between STARS claimant-level accounting systems and the Navy
      Headquarters Financial System were not. The DFAS Cleveland Center did not
      document and test the automated crosswalks to convert the field-level
      accounting data to the general ledger used by the STARS.

      The DFAS Kansas City Center System Manager/User Review of the Standard
      Accounting Budgeting Reporting System indicated that the system generally
      complied with the Key Accounting Requirements but that it was not a complete

                                              24
                                                Appendix A. Audit Process




financial management system. The system was not used to satisfy CFO
reporting requirements, does not interface with inventory and property
accounting systems, and was not programmed to age Accounts Receivable.




                                    25
Appendix B. Summary of Prior Coverage


General Accounting Office

    GAO Report No. AIMD-96-7, “CFO Act Financial Audits - Increased
    Attention Must Be Given to Preparing Navy Financial Reports,” March
    1996 (OSD Case No. 1050). This report states that the Navy FY 1994
    financial statements were substantially inaccurate. Specifically, GAO found
    $225 billion of errors in the statements, to include $66 billion of material
    omissions and $43 billion of misrecorded items. The Navy statements also
    omitted amounts for the building of aircraft and the modernization of weapon
    systems. A root cause of the Navy reporting deficiencies was the lack of
    internal controls and disciplined financial operations.

    GAO recommended that the DOD Comptroller and the Assistant Secretary of the
    Navy (Financial Management and Comptroller) jointly act to produce auditable
    financial statements for the Navy beginning in FY 1996 and periodically report
    results to the Secretary of Defense. The recommendations focused on
    compiling financial statements in accordance with guidance, implementing basic
    internal controls over financial accounting, and implementing strategies for the
    production of reliable statements by FY 1996. The Office of the Under
    Secretary of Defense generally concurred with the GAO’s findings and
    recommendations.



Department of Defense, Inspector General

    IG, DOD, Report No. 97-100, “Asset Presentation on Military Department
    General Fund Financial Statements,” February 25, 1997. This report states
    that the DFAS Centers incorrectly and inconsistently presented assets on the
    FYs 1994 and 1995 Army and Air Force General Fund financial statements.
    Specifically, $3 1.3 billion of Army war reserves and an incalculable amount for
    Air Force war reserves were not adequately disclosed. Also, $10.5 billion in
    progress payments were not adequately disclosed. To correct these problems,
    the report recommended that the Under Secretary of Defense (Comptroller)
    clarify the accounting guidance for reporting war reserves and progress
    payments on the financial statements, include war reserves as a separate line
    item on the financial statements, and consistently present progress payments by
    the DFAS Centers. The Under Secretary of Defense (Comptroller)
    nonconcurred with the recommendations, but subsequently agreed to follow the
    FASAB guidance for the FY 1998 Financial Statement reporting cycle. Where
    guidance is not explicit, the Comptroller plans to seek resolution of the issue
    with the Accounting and Auditing Policy Committee.


                                           26
                                         Appendix B. Summary of Prior Coverage



    IG, DOD, Report No. 97-027, “Defense Finance and Accounting Service
    Work on the Navy Defense Business Operations Fund FY 1995 Financial
    Statements,” November 22, 1996. This report states that the DFAS Cleveland
    Center did not have the required controls over processes used to compile the
    financial statements to ensure that errors do not occur. Specifically, standard
    written procedures were not in place for entering adjustments to the financial
    data; controls were not established for the manual input of financial statement
    data; and the Center published inaccurate line-item crosswalks for financial
    data. The IG, DOD, recommended that the Director, DFAS, require DFAS
    Cleveland Center to establish written procedures for adjusting financial reports
    in accordance with DOD 7000.14-R; establish an automated process for
    transferring financial statement data to a spreadsheet; correct errors in published
    crosswalks; and establish procedures for updating the crosswalks. The Director,
    DFAS, concurred and initiated corrective action.



Naval Audit Service

    NAS Report No. 044-95, “Fiscal Year 1994 Consolidating Financial
    Statements of the Department of the Navy DBOF,” May 30, 1995. The
    report, at the request of the IG, DOD, did not issue an opinion on the Statement
    of Financial Position of the FY 1994 Department of the Navy DBOF
    Consolidating Financial Statements. The Chief Financial Officers Act of 1990,
    as amended by the Federal Financial Management Act of 1994, gave the IG,
    DOD, overall responsibility for auditing DBOF financial statements. The NAS
    audit supported this requirement. The NAS reported that the DFAS paying
    offices inappropriately estimated collections and disbursements for nonreporting
    activities. In addition, DFAS improperly estimated sales for activities and
    ships. The DFAS Cleveland Center concurred or concurred in principle with
    the recommendations related to its work and made adjustments.




                                            27
Appendix C. FY 1997 Beginning Balances
   The Navy was not required to prepare General Fund financial statements for
   FY 1995 ; therefore, the DFAS Cleveland Center did not present data from
   FY 1995 for comparative purposes on the FY 1996 financial statements. Our
   audit determined that financial statement data could not be traced back through
   the accounting systems, and the accounting systems used for consolidating and
   reporting the financial statement data did not comply with the Key Accounting
   Requirements. Additionally, NAS was unable to give an opinion on the
   Statement of Financial Position, primarily because of inadequate financial
   systems and incomplete and unauditable supporting records. (For details, see
    “Department of the Navy Fiscal Year 1996 Annual Financial Report: Report on
   Auditor’s Opinion, ” March 1, 1997 .) Consequently, it cannot be determined
   whether FY 1996 ending balances are supportable for use as beginning balances
   for FY 1997 financial statements.




                                          28
Appendix D. Navy General Funds
    Entity Accounts
    General Funds
         0380 Coastal Defense Augmentation, Navy
         0703 Family Housing, Navy and Marine Corps
         1105 Military Personnel, Marine Corps
         1106 Operation and Maintenance, Marine Corps
         1107 Operation and Maintenance, Marine Corps Reserve
         1108 Reserve Personnel, Marine Corps
         1109 Procurement, Marine Corps
         1205 Military Construction, Navy
         1235 Military Construction, Navy Reserve
         1236 Payments to Kaho’Olawe Island Conveyance, Remediation, and
               Environmental Restoration Fund, Navy
         1319 Research, Development, Test and Evaluation, Navy
         1405 Reserve Personnel, Navy
         1453 Military Personnel, Navy
         1506 Aircraft Procurement, Navy
         1507 Weapons Procurement, Navy
         1508 Procurement of Ammunition, Navy and Marine Corps
         1611 Shipbuilding and Conversion, Navy
         1804 Operation and Maintenance, Navy
         1806 Operation and Maintenance, Navy Reserve
         1810 Other Procurement, Navy
         3980 Navy Management Fund
    Revolving Funds
         4557 National Defense Sealift Fund, Navy
    Trust Funds
         8008 Office of Naval Records and History Fund
         8423 Midshipmen’s Store, Unites States Naval Academy
         8716 Department of the Navy General Gift Fund
         8723 Ship’s Stores Profits, the Navy
         8730 United States Naval Academy Museum Fund
         8733 United States Naval Academy General Gift Fund
    Special Funds
         5095 Wildlife Conservation, etc., Military Reservations, Navy
         5185 Kaho’Olawe Trust (Special) Conveyance, Remediation, and
                Environmental Restoration Fund, Navy




                                      29
Appendix D. Navy General Funds



       Non Entity Accounts
       Special Funds (Receipt Accounts)
            3041 Recoveries Under the Foreign Military Sales Programs
            3210 General Fund Proprietary Receipts, Defense Military,
                   Not Otherwise Classified
            3875 Budget Clearing Account (Suspense)
            3878 Budget Clearing Account (Deposits)
            3879 Undistributed Letter of Credit Differences (Suspense)
            3880 Unavailable Check Cancellations and Overpayments (Suspense)
       Special Funds
            3885 Undistributed Intra-Governmental Payments, Navy
            9082 Intra-Budgetary Transactions - Trust Funds National Defense
       Deposit Funds
            6001 Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal
                  Property, Navy
            6002 Personal Funds of Deceased, Mentally Incompetent, or
                  Missing Personnel, Navy
            6025 Pay of the Navy, Deposit Fund
            6026 Pay of the Marine Corps, Deposit Fund
            6050 Employees Payroll Allotment Accounts (U.S. Bonds)
            6075 Withheld Allotment of Compensation for Payment of Employee
                  Organization Dues, Navy
            6083 Withheld Allotment of Compensation From Charitable
                  Contributions, Navy
            6134 Amounts Withheld for Civilian Pay Allotments, Navy
            6275 Withheld State and Local Taxes
            6434 Servicemen’s Group Life Insurance Fund, Suspense, Navy
            6705 Civilian Employee Allotment Account, Navy
            6706 Commercial Communication Service, Navy
            6763 Gains and Deficiencies on Exchange Transactions, Navy
            6850 Housing Rentals, Navy
            6875 Suspense
            6999 Accounts Payable, Check Issue Underdrafts, Navy




                                          30
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Cleveland Center
   Director, Defense Finance and Accounting Service, Kansas City Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                             31
Appendix E. Report Distribution



Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                            32
Part III - Management Comments
Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments


                          DEPARTMENT OF THE NAVY
                           OFFICE OF THE ASSISTANT SECRETARY
                       (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                   1000 NAVY PENTAGON
                               WASHINGTON, D.C. ZOSSO-1000

                                                                N O V 0 6 ~7

    MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    Subj:   DRAFT AUDIT REPORT ON DEFENSE FINANCE AND ACCOUNTING
            SERVICE WORK ON THE NAVY GENERAL FUND FISCAL YEAR 1996
            FINANCIAL STATEMENTS (PROJECT NUMBER 6FI-2024)

    Ref:    (a) DODIG memo of 11 Sep 97

    Encl:   (1) Response to Findings and Recommendations
            (2) List of Department of the Navy Accounts,
                Entity/Non-Entity by Type of Fund

         By reference (a), you provided a copy of the subject draft
    audit report for our review and comment. Enclosure (1) provides
    our response to the findings and recommendations.

         Enclosure (2) provides a list of the Department of the
    Navy (DON) accounts, entity/non-entity by type of fund extracted
    from the DON Fiscal Year 1996 Annual Financial Report. We
    suggest that you replace Appendix D of the subject audit with
    enclosure (2). This enclosure was based upon the Department
    of Defense "Guidance on Form and Content" and "Supplement to
    Volume I, Treasury Financial Manual" and more accurately reflects
    the classification and fund type used to prepare the DON
    Principal Statements.

         My point of contact for this audit is Mr. Warren Pfeiffer,
    FMO-225.  He may be reached at (202) 685-6730, DSN 325-6730
    or e-mail, pfeiffer-warren@fmogw.dipcw.disa.mil.




    copy to:
    NAVINSGEN (02)
    DFAS-HQ
    DFAS-CL




                                        34
                    Assistant Secretary of the Navy (Financial Management
                                               and Comptroller) Comments



             RESPONSE TO FINDINGS AND REC OMMENDATIONS
                     DODIG DRAFT AUDIT REPORT
                      PROJECT NUMBER 6E'I-2024



Finding, Inventory, Net:  Reporting guidance provided to the
Defense Finance and Accounting Service (DFAS) Cleveland (CL) and
Kansas City Centers was not consistent with SFFAS. Specifically,
the guidance for reporting Inventory was inadequate and resulted
in inconsistent and incomplete disclosure of financial
information in the Notes to the Financial Statements.

Response:  Nonconcur. To provide for uniformity and consistency
in preparing and presenting the Principal Statements and Notes,
the Under Secretary of Defense (Comptroller) (&SD(C)) issues to
the services and Department of Defense (DOD) agencies DOD
"Guidance On Form and Content." As the "Form and Content“
states, the guidelines set out disclosure requirements for the
financial statements. As directed, the Department of the Navy
(DON) used the DOD "Form and Content" to prepare and present the
DON Fiscal Year (FY) 1996 Principal Statements and Notes. The
data for Inventory, Net was a data call item and the data was
taken from the DOD Supply System Inventory Report. The DON,
Office of Financial Operations (FMO) was responsible for
compiling and forwarding that data to the DFAS-CL. Since FM0
forwarded the data for Inventory, Net (Note 8) to DFAS-CL, for
inclusion in the Principal Statements, additional guidance to
DFAS-CL for reporting and disclosure of Inventory, Net was not
necessary.

Inventory funded by General Funds, Index 17 is either held for
future use or as war reserve materiel, not inventory held for
sale, except for a small amount in a trust fund. The disclosure
presented in the "Form and Content" conforms more with reporting
for the Working Capital Fund business areas, not general funds.
Per informal USD(C) guidance the most reasonable categories for
reporting Inventory, Net (Note 8) would be the stratification:
Held in Reserve for Future Sale and War Reserve Material.

Recommendation  3: We recommend that the Assistant Secretary of
the Navy (Financial Management and Comptroller) provide the
DFAS-CL with guidance for the reporting and disclosure of FY 1997
Inventory, Net.




                                                      Enclosure (1)




                                35
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments



         Response :  Concur.   In preparing and presenting the FY 1997 DON
          Principal Statements and Notes, we will use the DOD "Guidance on
          Form and Content", as presented in the DOD Financial Management
          Regulation, Volume 6, Chapter 6. As we work with DFAS-CL Center
          in preparing and presenting the DON FY 1991 Principal Statements
          and Notes we will make every effort to ensure that both of our
          organizations follow the appropriate guidance. This corrective
          action should be accomplished by 1 March 1998.




                                            2




                                       35
              Assistant Secretary of the Navy (Financial Management
                                         and Comptroller) Comments



                       List     of

    Department of the Navy Accounts,

                Entity/Non-Entity

                 By Type of      Fund*




*Taken from Note 1. Summarv of Significant Accounting
Pclicies, Department of the Navy Financial Year 1996 Annual
Financial Report, pages 56-57.


                                             Enclosure t 2 1




                           37
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments



          .   Footnotes

              The accounts used to prepare the principal statements are classified as entity/non+ent@ and by
              type of fund. Entity accounts consist of resources that the agency has the authority to decide
              how to use, or where management is legally obligated to use funds to meet entity obligations.
              Non-entity accounts are assets that are held by an entity but are not available for use in
              operations.



              General funds
              17X0380               Coastal Defense Augnuntation. Navy
              17 0380               Coastal Defense Augmentation, Navy, (fucal year)
              17 0703               Family Housing, Navy and Marine Corps (fiscal year)
              17 1105               Military Personnel, Marine Corps (fiscal year)
              17 1106               Operation and Maintenance, Marine Corps (fiscal year)
              17 1107               Operation and Maintenance, Marine Corps Reserve (ftscal year)
              17 1108               Reserve Personnel, Marine Corps (fiscal year)
              17 1109               Procurement, Marine Corps (fiscal year)
              17 1205               Military Construction, Navy (fiscal year)
              17 1235               Military Construction, Naval Reserve (fiscal year)
              17X1236               Payments to Kaho’Olawe island Conveyance, Remediation. and
                                    Environmental Restoration Fund, Navy
              17x1319               Research, Development, Test and Evaluation, Navy
              17 1319               Research, Development, Test, and Evaluation, Navy (fiscal year)
              17 1405               Reserve Personnel.‘Navy (fiscal year)
              17 1 4 5 3            Military Personnel, Navy (fiscal year)
              17 1506               Aircraft Procurement, Navy (fiscal year)
              17 1507               Weapons Procurement, Navy (fiscal year)
              17 1508               Procurement of Ammunition, Navy and Marine Corps (fiscal year)
              17X1611               Shipbuilding and Conversion, Navy
              17 1611               Shipbuilding and Conversion, Navy (fiscal year)
              17 1804               Operation and Maintenance, Navy (fiscal year)
              17 1806               Operation and Maintenance, Navy Reserve (fiscal year)
              17 1810               Other Procurement, Navy (fiscal year)
              17X3980               Navy Management Fund

              Revolving funds
              17x4557                National Defense Sealifi timd. Navy
              17 4557                National Defense Sealift Fund. Navy (fiscal year)

              Trust funds
              17X8008                Office of Naval Records and History fund
              17X8423                Midshipmen’s Store, United States Naval Academy
              17X8716                Department of the Navy General Gift Fund
              17X8723                Ship’s Stores Profits, the Navy
              17X8730                United States Naval Academy Museum Fund




                                                   38
                       Assistant Secretary of the Navy (Financial Management
                                                  and Comptroller) Comments



                                                                               Footnotes

Trust Funds (cont’d)
17X8733                United States Naval Academy General Gift Fund

Special fund5
17x5095                Wildlife Conservation, etc., Military Reservations, Navy
17X5185                Kaho’Olawe Island Conveyance, Remediation, and Enviromncnral
                       Restoration fund, Navy



Special funds (Receipt Accounts)
17 3041             Recoveries under the Foreign Military Sales Programs
17 3210             General Fund proprietary Receipts, Defense Military, Nor: Otherwise
                    Classified
17F3875             Budget Clearing Account (Suspense)
17F3878             Budget Clearing Account (Deposits)
37F3879             Undistributed and Letter of Credit Differences (Suspense)
17F3880             Unavailable Check Cancellations and Overpayments (Suspense)

Special funds
17X3885                 Undistributed Intra-Governmental Payments, Navy
17X9082                 Intra-Budgetary Transactions-Trust Funds National Defense

Deposit funds
17X6001           .     Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property.
                        Navy
17X6002                 Personal funds of Dcccased, Mentally Incompetent or Missing
                        Personnel, Navy
17X6025                 Pay of the Navy, Deposit Fund
17X6026                 Pay of the Marine Corps, Deposit Fund
17X6050                 Employees Payroll Alloanent Accounts (U.S. Bonds)
17X6075                 Withheld Allotment of Compensation for payment of Employee
                        Organization dues, Navy
17X6083                 Withheld Allotment of compensation from Charitable Contributions
                        Navy
17X6134                 Amounts Withheld for Civilian Pay Allotments, Navy
17X6275                 Withheld State and Local Taxes
17x6434                 Servicemen’s Group Life Insurance Fund, Suspense, Navy
17X6705                 Civilian Employees Allotments Account. Navy
17X6706 .               Commercial Communication Service, Navy
17X6763                 Gains and Deficiencies on Exchange Transactions, Navy (fiscal year)
17X6850                 Housing Rentals, Navy
17X6875                 Suspense
17X6999                 Accounts Payable, Check Issue Underdrafis, Navy




                                        39
Defense Finance and Accounting Service
Comments


                  DEFENSE   FINANCE     AND     ACCOUNTING        SERVICE
                             1931   JEFFERSON   DAVIS   HIGHWAY
                               Ah-INGTON.     VA 2220~5291




    DFAS-HQ/AFB                                                       NOV 28 I997




        MEMORANDUM FOR DIRECTOR, FINANCE AND ACCOUNTING DIRECTORATE,
                         OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT
                         OF DEFENSE

        SUBJECT:      Audit Report on Defense Finance and Accounting
                      Service Work on the Navy General Fund FY 1996
                      Financial Statements (Project No. 6FI-2024)


              Our management comments on the subject report are
         attached.

              The point of contact is Ms. Hettye Kirkland,
         (703) 607-5104.




                                                Deputy Director for
                                                  Accounting

         Attachment:
         As stated

         cc:
         DFAS-CL/PI
         DFAS-KC/PI
         DFAS-IN/PI




                                         40
                  Defense Finance and Accounting Service Comments




SUBJECT: Audit Report on Defense Finance and Accounting Service
          Work on the Navy General Fund FY 1996 Financial
          Statements (Project No. 6FI-2024)


RECOMMENDATION 1:   That the Director, Defense Finance and
Accounting Service, require the DFAS-Cleveland and Kansas City
Centers to establish audit trails that trace financial data by
documenting and testing crosswalks between all nonstandard
general ledger financial accounting systems and departmental
accounting systems.

DFAS COMKE!NTS:   Concur. In April 1997, DFAS-Cleveland completed
crosswalks among the Navy departmental system, the NHFS, and the
Standard Accounting and Reporting System Headquarters Claimant
Module (STARS-HCM) and Claimant Accounting Module (STARS-CAM).
With the exception of one or two line items, e.g., Unearned
Revenues, all lines on the former DD Form 1176, now SF 133,
Report on Budget Execution, were successfully reconciled between
the departmental and claimant level reports for each Navy
claimant. Additionally, crosswalks between the Responsible
Office Accounting and Reporting System (ROARS) and NHFS are
nearly complete. While these crosswalks demonstrate that audit
trails can be established between departmental and claimant level
reports, the DFAS does not intend to develop crosswalks for every
Navy claimant. Once the STARS-Funds Distribution and Reporting
module becomes operational on-line, these crosswalks will be
obsolete. Until such time, crosswalks will only be developed if
specifically requested by the claimant.

The DFAS-Kansas City Center implemented the Standard Accounting
Budgeting and Reporting System 2 (SABRS 21, Phase I, and
integrated funds distributions for allotment accounting.
SABRS 2, Phase II, is scheduled for implementation in October
1998. This phase will support all general ledger accounting for
the Marine Corps in a single, integrated accounting system.
SABRS 2 will provide accounting support for all Marine Corps
general fund appropriations, comply with all key accounting
requirements, and satisfy Chief Financial Officer requirements
and any related fiduciary requirements.

For interfacing data sent to SABRS for processing, we have the
data format, how the data will be processed in the system, and
the general ledger accounts that those transactions will post
to. Interfacing transactions are also stored, with the




                            41
Defense Finance and Accounting Service Comments




         originating system identification, on the SABRS Transaction
         History File. These interfacing processes were documented during
         the System Integration Test Stage. This process establishes
         audit trails for all Marine Corps General Fund appropriations.

         Estimated Completion Date:    October 31, 1998.

         RECOMMENDATION 2.a. That the Director, Defense Finance and
         Accounting Service, require the DFAS-Cleveland Center to
         establish a systemic methodology for determining allowances for
         uncollectible Accounts Receivable based on research of past
         losses.

         DFAS  COMMENTS: Concur. The DFAS agrees that a standard
         methodology should be established to determine the allowances for
         uncollectible accounts receivable for the entire Department of
         the Navy (DON). The DFAS-Cleveland Center is currently working
         to enhance the business processes related to vendor duplicate,
         erroneous, and over payments in the One Pay system. Part of the
         enhanced feature is to process allowances for losses on claims
         and refunds receivable. However, this initiative is only a
         portion of the allowances for uncollectibles of all DON accounts
         receivable. Presently, DON is responsible for determining the
         allowances to be applied to the remaining position of their
         accounts receivable and for reporting the amount to DFAS. Both
         Navy and DFAS will continue to coordinate procedures to maintain
         and establish a systemic methodology.

          Estimated Completion Date:   June 30, 1998.

         RECOMMENDATION 2. b. That the Director, Defense Finance and
         Accounting Service, require the DFAS-Cleveland Center to
         establish written procedures that require supervisory review and
         approval of amounts reported in the Notes to the financial
         statements to ensure compliance with the Statement of Federal
         Financial Accounting Standards and Office of Management and
         Budget Bulletin No. 94-01, "Form and Content of Agency Financial
         Statements," for adequate footnote disclosure.

          DFAS COMMENTS:   Concur. A draft of the DOD Financial Management
          Regulation 7000.14 R, Chapter 6, is being staffed to document
          standard Chief Financial Officer reporting. While the regulation
          will include instructions previously referenced in the DOD CFO
          Form and Content for FY 1996, it will also include updated
          changes. Additionally, each center will be responsible for




                                       42
                    Defense Finance and Accounting Service Comments




drafting standard operating procedures to ensure their
supervisory personnel conduct a more comprehensive and detailed
review of each footnote. These procedures will include
requirements about what information is to be disclosed, the
extent of the disclosure, and the approval process for
adjustments. In the interim, the DFAS-Cleveland Center will
draft written procedures that require supervisory review and
approval.

Estimated Completion Date:   January 31, 1998.

RECOMMENDATION 2-c. That the Director, Defense Finance and
Accounting Service, require the DFAS-Cleveland Center to
reclassify and separately disclose in the footnotes, the amount
of FY 1996 In-Transit Problem Disbursements included in Unmatched
and Negative Unliquidated Obligation Problem Disbursement amounts
in Note 31 to the FY 1997 Navy General Fund Financial statements.

DFAS COMMENTS: Concur. The DFAS-Cleveland Center will include
a separate disclosure of the applicable disbursements in
footnote 31, "Other Disclosures," in the FY 1997 CFO
statements.

Eetimated Completion Date:   December 31, 1997.




                              43
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

F. Jay Lane
Richard B. Bird
Joel K. Chaney
Edward A. Blair
Carrie Wade
Gregory Mennetti
Suzanne Williams
Suellen Brittingham
Daniel Birnbaum
Deborah Curry
